@OCKLE

Legal Briefs

2311 Douglas Street
Omaha, Nebraska 68102-1214

Est. 1923
1-800-225-6964
(402) 342-2831

Fax: (402) 342-4850 Na
EDWARD GEORGE McGREGOR,
Petitioner,
v.
THE STATE OF TEXAS,
Respondent.
AFFIDAVIT OF SERVICE

E-Mail Address:

contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 25th day of November, 2019, send
out from Omaha, NE 1 package(s) containing 3 copies of the PETITION FOR A WRIT OF CERTIORARI in the above
entitled case. All parties required to be served have been served by Priority Mail. Packages were plainly addressed to the

following:

SEE ATTACHED

To be filed for:
RANDOLPH L. SCHAFFER, JR.
Counsel of Record
1021 Main, Suite 1440
Houston, Texas 77002
(713) 951-9555
noguilt@swbell.net

Counsel for Petitioner

Subscribed and sworn to before me this 25th day of November, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

My Commission Expires Nov 24, 2020

 

Notary Public

38802
SERVICE LIST

Baldwin Chin

301 Jackson Street

Room 301

Richmond, Texas 77469
281-341-4460
Baldwin.Chin@fortbendcountytx.gov
Counsel for The State of Texas
